OVERSIGHT OF THE COMMERCIAL

 DRIVER’S LICENSE PROGRAM 

 Federal Motor Carrier Safety Administration


        Report Number: MH-2006-037 

        Date Issued: February 7, 2006 

                                                                                    Memorandum
             U.S. Department of Transportation
             Office of the Secretary
             of Transportation
             Office of Inspector General


Subject: 	                                                                                       Date:
             ACTION: Report on Federal Motor Carrier Safety                                                February 7, 2006
             Administration Oversight of Commercial Driver’s
             License Program
             Report Number: MH-2006-037
  From:      Kurt Hyde 	                                                                      Reply to 

                                                                                              Attn. of:    JA-40

             Assistant Inspector General 

              for Surface and Maritime Programs 


    To:      Federal Motor Carrier Safety Administrator

             This report discusses actions taken by the Federal Motor Carrier Safety
             Administration (FMCSA) to counter commercial driver’s license (CDL) fraud. It
             specifically focuses on any actions taken against individuals suspected of obtaining
             their commercial driver’s license fraudulently. These CDL holders are considered
             suspect because they obtained their CDLs by fraud or from state employees or state-
             approved third-party examiners1 who were suspected of fraudulently providing
             licenses.

             It is important to establish strong programs to prevent fraud, but it is just as important
             to remove unqualified drivers from the road after CDL fraud has been detected.
             Failure to revoke the licenses of unqualified drivers may lead to tragic and costly
             crashes, as illustrated by a crash in 2003 that resulted when an individual with a CDL
             killed a family of five in Pennsylvania. An investigation by our office revealed that
             the driver’s license was obtained in Utah from a third-party examiner who was
             convicted of fraudulently certifying CDL test results.

             Our objective was to ascertain what actions FMCSA had taken to determine the status
             of suspect drivers identified by the states and to inform FMCSA of our observations
             regarding the issuance of fraudulent CDLs. In conducting this review, we relied on



             1
                 Third-party examiners are individuals or organizations authorized by a state to provide testing for individuals seeking to
                 obtain CDLs.
                                                                                                                2

information we obtained on suspect CDL holders from Office of Inspector General
(OIG) investigators in cooperation with officials from FMCSA Division offices. The
information was on individuals who may have received their CDLs fraudulently over a
5-year period (1998 through 2003) and was solicited through a survey from the 50
states and the District of Columbia. All 51 jurisdictions responded to the survey and
32 of the 51 reported some CDL fraud over the 5-year period, with 27 providing
specific information on suspect CDL holders. We conducted this performance audit in
accordance with Government Auditing Standards prescribed by the Comptroller
General of the United States. Exhibit A contains more details regarding our objective,
scope, and methodology. Additional information on our prior reports on the CDL
program is in Exhibit B.

BACKGROUND
Before Congress established the CDL program through the Commercial Motor
Vehicle Safety Act of 1986, drivers in more than a third of the states could operate a
large truck or bus without obtaining a special license. Moreover, commercial drivers
often held licenses from several states, making it easy to hide bad driving records.
A CDL is now required for the operation of commercial vehicles weighing at least
26,001 pounds; hauling hazardous materials; or transporting at least 16 passengers,
including the driver. The states have issued more than 11 million CDLs since 1989.
On average, 40,000 CDLs are issued each month and approximately 123,000 are
transferred between states every year.

RESULTS IN BRIEF
Curbing CDL fraud is important to highway safety because it helps ensure that only
drivers with the requisite skills obtain CDLs. The OIG’s November 2005 report on
DOT Top Management Challenges2 noted that over the past 5 years we have
investigated and prosecuted CDL fraud schemes in 23 states. These investigations,
carried out with other law enforcement agencies and with the strong support of
FMCSA, revealed that thousands of CDLs were issued to drivers who obtained them
through corrupt state or state-approved testing processes, that is “third-party
examiners.” What we have learned from our casework is that people are motivated to
pay bribes to circumvent CDL licensing requirements for a variety of reasons. These
reasons include (a) the inability of foreign nationals to pass the written examination
due to language barriers, (b) unwillingness to wait the time necessary for completion
of the CDL knowledge and skills test and issuance, (c) lack of required legal residency



2
    OIG Report Number PT-2006-007, “Top Management Challenges,” November 15, 2005. OIG reports can be found on our
    website: www.oig.dot.gov.
                                                                                         3

or citizenship, and (d) insufficient training to pass the skills test. Our November 2005
report called for greater attention on suspect CDL holders.
FMCSA has implemented actions to mitigate CDL fraud. However, FMCSA was not
tracking the status and disposition of suspect drivers or requiring the states to establish
procedures to take action against suspect CDL holders. From 1998 to 2003, 27 states
identified 15,032 suspect CDL holders and took appropriate actions, including
removal of CDL privileges, against 8,293 (55 percent) of those. We could not
determine the status of the remaining 6,739 (45 percent) suspect drivers based on
information that the states provided, and FMCSA was not tracking their status. As a
result, unskilled drivers could be operating commercial vehicles on the nation’s
highways, creating significant risks for death, injury, and property damage.
In a draft of this report, we recommended that FMCSA direct the states to report on
the final disposition of the remaining 6,739 suspect drivers. These disposition actions
could include retesting drivers and revoking licenses as appropriate. To facilitate this
we provided FMCSA with the names of suspect drivers identified to us. We also
recommended that FMCSA ensure states establish adequate internal controls to track
suspect drivers and counter fraud in the CDL program.3

In responding to our draft report, FMCSA generally agreed with the recommendations
but stated that it could not direct the states to report the disposition of all remaining
suspect drivers unless direct evidence of fraud was present. We do not find that the
factors cited by FMCSA would preclude requiring states to report the disposition of all
suspect CDL holders. We view reporting on the disposition of suspect CDL holders to
be a prudent internal control policy. In order to clarify any potential confusion on the
issue, we revised our final report to point out that directing the states to report the
disposition of suspect CDL holders does not necessarily require the states or FMCSA
to take action against a driver, such as retesting, when the facts of the case do not
require it. We also revised the final report to reflect regulatory factors, cited by
FMCSA, that must be met before states could be sanctioned for having insufficient
controls against fraud. We have asked FMCSA to respond to our revised report
recommendations.

FINDINGS

FMCSA Has Implemented Procedures To Counter CDL Fraud But More
Action Is Needed To Track Suspect Drivers.
FMCSA has implemented a series of specific actions to counter CDL fraud. For
example, FMCSA has:



3
    49 Code of Federal Regulations, Part 384, et seq.
                                                                                                                   4

            •	 Developed a program in conjunction with the American Association of
               Motor Vehicle Administrators (AAMVA) and the states. The purpose of
               the program is to: (1) identify areas of the CDL program most vulnerable to
               illegal CDL activities, (2) research existing and proposed law enforcement
               practices to combat illegal CDL activities, (3) evaluate the effectiveness of
               those practices, and (4) develop a model law enforcement program for
               reducing CDL fraud;4
           •	 Implemented a CDL fraud component within FMCSA’s CDL Compliance
              Review Program5 that incorporated questions to determine the nature and
              effectiveness of CDL anti-fraud procedures and systems;

           •	 Contracted with Oak Ridge National Laboratory to conduct an evaluation of
              the CDL Compliance Review Process;

           •	 Developed training in fraudulent document recognition for law enforcement
              and CDL coordinators;

           •	 Held an international symposium centered on fraud related issues in driver
              licensing; and

           •	 Entered into an agreement with AAMVA to develop software for detecting,
              preventing and deterring fraud by third parties involved in skills testing.

Although the actions FMCSA has taken to counter fraud are positive, the results of our
analysis show that more must be done to ensure that those who may have obtained
their licenses fraudulently are identified and action is taken to remove CDLs when
necessary. The OIG, in coordination with FMCSA, requested that the states and the
District of Columbia provide a list of names of all suspect CDL holders. In response
to the request, 50 states and the District of Columbia reported that they identified
15,032 suspect CDL holders between 1998 and 2003 and took appropriate action
against 8,293 (55 percent) of the suspect CDL holders, including removing CDL
privileges. However, based on information that the respondents provided, we could
not determine the status of the remaining 6,739 (45 percent) suspect drivers.




4
    A contract (total cost $168,000) has been awarded to develop this model law enforcement program.
5
    FMCSA conducts on-site compliance reviews (about 15 a year) of state CDL programs to determine whether the states
    meet the general requirements for substantial compliance.
                                                                                                                           5

The Table below provides details on the disposition of the 15,032 suspects.

                              Table: Disposition of 15,032 Suspect CDL Holders

         Number of
          Actions
          Against                           Disposition of Actions Taken ( See Exhibit D)
        Suspect CDL
          Holders
                              State reports on 8,293 (55 percent) suspect drivers showed action
                              taken to remove CDLs when necessary.
          3,334               • CDLs were cancelled, disqualified, revoked, or suspended or
                                 drivers were required to retest and failed.
          2,891               • Drivers passed a retest or provided adequate evidence to keep their
                                 CDLs.
          2,068               • Drivers’ CDLs were downgraded or drivers voluntarily
                                 surrendered their CDLs.
          8,293               Total Actions
                              State reports on 6,739 (45 percent) suspect drivers did not provide
                              information on status of the drivers.
          5,314               • Drivers’ CDLs were reported as suspect, but the final disposition
                                 was unknown. Approximately 94 percent of the 5,314 suspect
                                 drivers were from Florida and Pennsylvania.
          1,147               • Drivers had transferred their state of residence, which made
                                 tracking difficult.
            278               • Drivers had not been retested (103) or were unresolved for other
                                 reasons (175).
          6,739               Total Status Unknown
    Source: OIG analysis of data provided by states.

FMCSA officials stated they had not taken steps to determine the status of the 6,739
suspect CDL holders because they were not sure that they had authority to compel
states to take action to track suspect CDLs. FMCSA carried out this tracking
procedure in October 2000 when fraud was uncovered in Illinois and Florida,
following the Secretary of Transportation’s establishment of a task force to investigate
CDL fraud in those states.6 FMCSA officials also told us of another instance when
FMCSA tracked 600 suspect drivers in one state and action was taken against the
individuals, although the effort took approximately 4 years. However, FMCSA
cautioned that these past actions did not mean FMCSA could direct states to track
suspect drivers. Rather, FMCSA’s position is that it only has authority to direct states



6
    “Evaluating Commercial Driver License Program Vulnerabilities - a Study of the States of Illinois and Florida,” issued by
    FMCSA, October 2000.
                                                                                       6

“to report the disposition of suspect CDL holders for those drivers for which specific
or direct evidence exists that the driver was involved in fraudulent activity and not
merely the victim of being tested by an examiner who engaged in fraudulent activity
with another driver on a different date.”

The regulations provide FMCSA with authority to find a state out of compliance if it
fails to impose adequate internal control mechanisms to prevent fraud or to take
necessary corrective action.7 We believe that having states report the disposition of
suspect drivers is a reasonable step to ensure that the states have a system in place
(i.e., adequate internal controls) for ensuring that those suspected of obtaining CDLs
by fraud are identified and removed from the road when appropriate.

Our recommendation that FMCSA direct the states to report on the disposition of
suspect CDL holders also does not call for the states or FMCSA to take action against
a driver when the facts of the case do not require it. In some cases the state’s
disposition report may show that no action was taken regarding one or more suspect
drivers because it appears that those drivers were only coincidentally associated with a
corrupt CDL examiner. Alternatively, in other cases, the investigation could show
that the examiner was incompetent or that fraud was so wide-spread that it would be
reasonable to retest any individual associated with that examiner. Finally, although
reporting the disposition of drivers who obtained licenses in another state may pose
difficulties, individuals should not be able to successfully obtain CDLs through
fraudulent means by transferring licenses to another state.

Moreover, based on our analysis of the responses from the states, it is our opinion that
the number of suspect CDL drivers identified does not represent the entire universe of
suspect CDL holders. For example:

       •	 Five states that reported the existence of CDL fraud during the period from
          1998 through 2003 did not provide information on any specific suspect drivers.

       •	 One state noted that there were too many suspect CDL holders to list.

       •	 One state indicated that there was no CDL fraud; however, the OIG has an
          ongoing investigation of CDL fraud in that state.

FMCSA Should Use Its Authority to Implement Counter Fraud Initiatives
Given the scope of suspect CDL holders and the continued prosecution of CDL fraud
in numerous states, FMCSA should use its authority under Federal regulations to



7
    49 Code of Federal Regulations, Part 384.301.
                                                                                                                       7

promote strong state programs for countering CDL fraud. FMCSA exercises its
authority over the CDL program by conducting reviews to determine whether the
states are in substantial compliance8 with CDL regulations. Further, it has the
authority to withhold funds or prevent the issuance of CDLs in those states that are in
noncompliance with the rules. During our review, we held discussions with FMCSA
legal counsel to clarify the degree to which FMCSA may exercise this authority over
the states with regards to counter-fraud measures. Based on our discussions, we
determined that the standards and criteria in the regulations,9 taken together, give
FMCSA the authority to establish fraud control measures for the CDL program
administered by the state. Consequently, based on Federal regulations, FMCSA can
determine that state CDL programs are out of compliance if the state fails to impose
adequate internal controls to prevent fraud or fails to take or propose necessary
corrective action. Federal regulations also authorize FMCSA to impose sanctions
against those states that fail to establish adequate fraud control measures for their CDL
programs. We are recommending that FMCSA exercise that authority to help ensure
the establishment of strong state programs to prevent fraud and to remove unqualified
drivers from the road after CDL fraud has been identified.

Additional Information on CDL Fraud Controls
To support the efforts of FMCSA to counter CDL fraud, we have provided in
Exhibit C an updated list of CDL fraud controls that states can use to diminish the
occurrence of fraud in state CDL programs. We provided the original list to FMCSA
in an earlier audit report and suggest that FMCSA uses these controls, as appropriate,
when working with the states to develop management control practices to detect and
prevent fraudulent testing and licensing activity.

RECOMMENDATIONS
We recommend that the FMCSA Administrator:

1. Direct the states to report on the final disposition of all suspect drivers identified
   by the states. These disposition reports should emphasize but not necessarily be
   limited to instances where there is specific or direct evidence that the driver
   participated in a fraudulent activity to obtain the CDL.




8
  To meet the substantial compliance requirement, a state must have procedures in place to meet the minimum requirements
  for testing drivers, responding to violations, disqualifying drivers, licensing drivers, and checking driver’s records.
  (49 CFR 384.301(a).).
9
  49 CFR § 384, et. seq.
                                                                                                                          8

2. Determine that state CDL programs are out of compliance, under Federal
   regulations,10 if the state fails to impose adequate internal controls to prevent fraud
   or fails to take or propose necessary corrective action.

3. Impose sanctions, under Federal regulations,11against those states that fail to
   establish adequate fraud control measures for their CDL programs.

MANAGEMENT COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
We provided FMCSA a draft of this report on October 27, 2005. In its December 12,
2005 written comments, FMCSA commented on our finding and recommendations
and provided examples of initiatives it supports to counter CDL fraud. Based on
FMCSA’s comments, we revised the report findings to reflect the additional counter-
fraud initiatives that FMCSA is undertaking. We also revised the findings and the
recommendations to include additional detail and appropriate qualifications on the
authority granted to FMCSA under Federal CDL regulations. FMCSA’s complete
comments are in the Appendix to this final report.

In response to recommendation 1, to direct the states to report the final disposition of
the remaining 6,739 suspect CDL drivers, FMCSA stated that it does not believe it has
the authority to direct states to report the disposition of all suspect CDL drivers.
FMCSA agreed, however, that it has the authority to direct states to report the
disposition of any drivers found to be involved in fraudulent activity and not merely a
victim of an examiner’s fraudulent activity. In responding to recommendations 2 and
3, to ensure states implement adequate fraud control measures and to impose sanctions
against states that fail to do so, FMCSA generally agreed with the recommendations
but provided specific regulatory requirements that must be met before states could be
cited for noncompliance or sanctions could be imposed.

In our opinion, directing states to report on the disposition of all suspect drivers is a
prudent action that is consistent with CDL regulations. To address any potential
confusion, we revised the report to point out our recommendation only requires that
states report on the disposition of suspect drivers, not that the states take any specific
action, such as retesting a driver, when the facts of the case do not call for such action.
We also revised recommendation 1 to make it clear that disposition reports should be




10
     As required by CFR section 384.307(d), FMCSA should consider actual or planned corrective actions sufficient to correct
     any deficiencies before making a final determination of lack of substantial compliance.
11
     The authority to impose any sanctions is contingent upon a final determination of substantial noncompliance with
     standards and requirements of CFR sections 383 or 384.
                                                                                    9

required for both previously identified and any future suspect drivers. We revised
recommendations 2 and 3 to include a reference to the appropriate regulations.

ACTIONS REQUIRED
We request that FMCSA provide written comments within 30 days containing its
formal response to recommendations 1, 2, and 3, given the modifications made to
those recommendations in the final report. The response should include milestones
for recommendation 1 that address when FMCSA will obtain information from the
states on the disposition of suspect CDL drivers, including interstate transfers.

We appreciate the cooperation and assistance provided by you and your staff during
our review. If you have any questions or need further information, please feel free to
contact me at (202) 366-2017 or Joe Comé, Program Director, at 202-366-0377.
                                                                                     10


EXHIBIT A. OBJECTIVE, SCOPE, AND METHODOLOGY
We conducted this performance audit in accordance with Government Auditing
Standards prescribed by the Comptroller General of the United States. Our
objective was to determine what actions FMCSA had taken to learn the status of
suspect drivers identified by the states and to inform FMCSA of our recent
observations regarding the issuance of fraudulent CDLs.

To identify actions FMCSA took to determine the status of suspect drivers, we
discussed the issue with FMCSA officials responsible for the CDL program. We
also obtained a written response from FMCSA on an informal discussion draft of
this report.

We analyzed information provided to our investigators in response to a request to
50 states and the District of Columbia for a listing of suspect CDLs issued over a
5-year period (1998-2003). OIG investigators, with the cooperation of the
FMCSA division offices, sent the requests to the states. We applied analytical
procedures to the data received from the states including compiling, analyzing,
and summarizing the information.

We limited our scope to the actions taken by FMCSA regarding suspect CDL
holders. We examined the information obtained on suspect drivers but we did not
test internal controls over, or validate the reliability of the data the states provided
to the OIG investigators. As a result, the magnitude of suspect CDL holders may
vary from the reported levels. However, it is our opinion that the information is
sufficiently reliable to draw conclusions on FMCSA’s policy on determining the
status of suspect CDL holders.

To provide additional information to FMCSA on CDL fraud, we reviewed the
requirements to obtain a CDL for 50 states and the District of Columbia and
reviewed information obtained in prior and current audits and investigations. In
addition, we created a flow chart of the CDL testing and issuance process and
formed preliminary conclusions regarding the testing and issuance of CDLs. Also,
to gain an understanding of any other work FMCSA performed on CDL fraud, we
reviewed an October 20, 2000 FMCSA report, “Evaluating Commercial Driver
License Program Vulnerabilities - a Study of the States of Illinois and Florida.”

We performed the review from August 2003 to December 2004. The review was
temporarily suspended (March to November 2004) due to other audit priorities.




Exhibit A. Objective, Scope, and Methodology
                                                                               11


EXHIBIT B. PRIOR AUDIT COVERAGE
The following are summaries of prior OIG reports on CDLs.

OIG Report Number MH-2000-106, “Disqualifying Commercial
Drivers,” June 30, 2000
The objective of the audit was to determine the adequacy of FMCSA’s oversight
for ensuring that states took actions, when appropriate, to disqualify commercial
drivers. We found that states did not disqualify commercial drivers as required by
law, granted special licenses to commercial drivers who posed a safety risk, and
withheld convictions of disqualifying violations from drivers’ records. Further,
the Federal oversight program of states’ CDL programs was inadequate to ensure
that unsafe drivers were disqualified. These deficiencies were caused by a lack of
FMCSA oversight of states’ CDL programs and the failure of FMCSA to impose
sanctions on states to correct the problems.

We recommended that FMCSA (1) obtain corrective action plans from
noncompliant states, (2) modify program reviews to make them comprehensive
and include operational testing, (3) implement periodic training programs for
personnel conducting CDL program reviews, (4) develop and implement
centralized monitoring capabilities through CDLIS, (5) prepare a management
report tracking each state’s implementation of prohibitions on masking and special
licensing, (6) impose sanctions on noncompliant states, and (7) require states to
report disqualifications with associated convictions.

OIG Report Number MH-2002-093, “Improving Testing and Licensing
of Commercial Drivers,” May 8, 2002
The overall objective of the audit was to determine whether FMCSA (1) had an
adequate basis for relying on annual certifications from the states that they meet
Federal testing and licensing requirements of the CDL Program, (2) conducted
oversight reviews sufficient to identify weaknesses in state CDL programs
regarding the testing of commercial drivers and the issuance of CDLs, and (3) took
action to ensure that significant weaknesses disclosed by Federal oversight
reviews or annual state certifications were corrected.

We found that existing Federal standards and state controls were insufficient to
defend against the alarming threat posed by individuals who seek to obtain
fraudulent CDLs. One of the principle findings of the report was that most states
have either experienced instances of fraudulent activities within their CDL
program or have testing and licensing practices that make them susceptible to
fraud. The report indicated that the activities ranged from cheating on tests to
outright bribes to obtain a CDL without being tested. The report recommended

Exhibit B. Prior Audit Coverage
                                                                                  12

that FMCSA be more assertive in ensuring that problems identified in state
programs are corrected and in using available sanctions when states do not correct
significant problems.

OIG Report Number PT-2004-006, “Top DOT Management Challenges
for 2004,” December 5, 2003
One of the top management challenges for the Department for FY 2004 involved
the CDL program. To promote highway safety, aggressive action is needed to
prevent drivers from obtaining CDLs through kickbacks or other fraudulent
schemes.
To achieve the Department’s 2008 goals of reducing all traffic fatalities to 1 per
100 million vehicle miles traveled and large truck fatalities to 1.65 per 100 million
vehicle miles traveled, FMCSA needs to attack a range of challenging problems.
FMCSA must ensure that only drivers with the requisite skills obtain and retain
CDLs by:

   •	 Curbing CDL fraud through more rigorous oversight of state testing
      programs and by having states adopt useful control techniques we have
      recommended, such as the covert monitoring of driver examiners.

   •	 Promptly implementing revisions to the CDL program passed by Congress
      in 1999 that strengthen the regulatory framework of the program, such as a
      provision eliminating state programs that mask or withhold convictions
      from a commercial driver’s record.

OIG Report Number PT-2005-008, “Top DOT Management Challenges
for 2005,” November 15, 2004
One of the top management challenges for the Department for FY 2005 involved
the CDL program. Over the past 5 years the OIG has participated in the
investigation and prosecution of CDL fraud schemes in 21 states. During this
period, over 75 investigations carried out in cooperation with the Federal Bureau
of Investigation and other law enforcement agencies found that individuals
obtained CDLs through corrupt state or state-approved testing processes. These
most often have involved “third-party examiners.” The report indicated that
following up on suspect CDL holders and expanding the use of covert testing of
third-party examiners are areas that need considerably greater attention.
Additionally, demonstrating legal presence in the United States should be a
requirement to obtain a CDL. In previous audit reports and again in 2004, we
recommended to the Department that all CDL applicants demonstrate citizenship
or legal presence. The Department plans to address this recommendation through
a rulemaking.



Exhibit B. Prior Audit Coverage
                                                                                                                    13




EXHIBIT C. CDL FRAUD CONTROLS
The following information on positive practices, which is an update from a
previous audit report,12 is offered for dissemination throughout the CDL testing
and licensing community. The information is intended to supplement other efforts
under way to identify CDL best practices. The practices are grouped according to
the 10 control areas.
Control Area #1—Identity: Controls to ensure that the person applying for a
CDL provides the correct identity.

•	 Include a digitized photograph in the driver history record and review the
   photograph when replacement licenses are issued. This controls against
   different individuals obtaining a license by falsely claiming that a CDL was
   lost or stolen.
•	 Include fingerprints in drivers’ record.
•	 Verify social security numbers with the Social Security Administration.
Control Area #2—Residency: Controls to ensure that applicants for a CDL have
permanent residence in the State from which they are obtaining the CDL and
provide an accurate address.

•	 Mail new licenses to the address as provided by applicants to control against
   use of false addresses.
•	 Do not accept post office boxes for addresses.
•	 Require applicants to provide copies of leases or utility bills as proof of
   residency.
Control Area #3—Record Checks: Controls to ensure that CDLIS and NDR are
checked for eligibility before issuing a CDL13.

• Establish computer controls that do not allow transactions to continue until
  checks are performed. For example, establish automated controls that will not




12
     OIG Report Number. MH -2002-0903, “Improving the Testing and Licensing of Commercial Drivers,”
     May 8, 2002.
13
     CDLIS is the Commercial Driver License Information System. NDR is the National Driver Registry, which is a
     central repository of information on individuals whose privilege to drive has been revoked, suspended, canceled, or
     denied or who has been convicted of serious traffic-related offenses.


Exhibit C. CDL Fraud Controls
                                                                                14

   allow examiners to input results of an examination into the computer until
   CDLIS and NDR checks are performed.
•	 Establish computer controls that automatically check CDLIS and NDR for
   each CDL transaction to ensure that these checks are performed.
•	 If licensing clerks have the ability to override NDR checks, establish a
   reporting system showing the number of overrides and the licensing clerks
   responsible for the actions.
Control Area #4—Knowledge Tests: Controls to ensure that applicants pass the
appropriate knowledge tests before they can receive a CDL.

•	 If permitted in knowledge testing, ensure that translators are on an approved
   list. Also, tape record translations to discourage cheating and permit later
   review if problems are suspected.
•	 Use fully computerized knowledge testing systems where questions are
   randomly selected and scores are automatically transferred onto the driver’s
   record.
•	 If fully computerized systems are not feasible, use computer programs that
   randomly generate questions for knowledge tests. These can produce multiple
   printed versions of the knowledge tests so those individuals taking the test
   side-by-side do not have the same questions. An AAMVA committee has
   developed such a program for use by the states.

Control Area #5—Permits: Controls to ensure requirements are met before the
issuance of a learner’s permit. (Learner’s permit holders are allowed to operate a
commercial vehicle provided a CDL holder accompanies the person.)

•	 Place the applicant’s photograph on the learner’s permit.
•	 Enter CDL learner’s permit holders in the CDLIS to preclude individuals from
   obtaining multiple learner’s permits in different states.
•	 Do not accept permits transferred from other states, or if transfers are
   permitted, be aware of state differences regarding passing the knowledge tests
   before issuance of permits.

Control Area #6—Issuance: Controls to ensure that licenses are issued only to
individuals who have completed all testing requirements.

•	 Before a license is issued, have a different unit reconcile and verify documents
   involved in the transaction.



Exhibit C. CDL Fraud Controls
                                                                                 15

•	 As an alternative to pre-issuance reviews, conduct a post-transaction audit to
   verify that the results of knowledge and driving tests are correctly entered into
   the computer system.
•	 Establish computer system controls that cannot be overridden, which will not
   allow the issuance of a CDL without completion of all required steps.
Control Area #7—Training Qualified Examiners: Controls to ensure that
driving examiners are properly trained and qualified to administer the skills tests.

•	 Require formal training to become a driving examiner, plus annual refresher
   training. The AAMVA certification training provides for a minimum of
   40 hours of initial training and 10 hours of annual refresher training.
•	 Require state examiners as well as examiners working for third-party testers to
   have CDLs.
•	 Conduct annual driver history and criminal checks on examiners.
•	 Combine the training for state and third-party testers to ensure that tests
   administered by the two types of testers are consistent.
Control Area #8—Skills Test: Controls to ensure that an applicant takes and
passes the appropriate skills test before receiving a CDL.

•	 Design counterfeit-resistant certificates for use by third-party testers to show
   that driving tests have been successfully completed.
•	 Use standard written preprinted instructions for applicants when giving the test
   to promote consistent administration of the tests, including checks to see that
   tests are conducted in a vehicle representative of the one that will be used by
   the applicant after the license is issued.
•	 Hold periodic meetings for driving examiners from across the state to promote
   greater consistency in the examination process.
•	 Establish written descriptions of how the driving test is to be conducted in the
   state.

Control Area #9—Review Examiners: Controls to ensure that third-party
examiners are monitored to ensure they are complying with the CDL Program.

•	 Conduct routine covert reviews of third-party testers.
•	 Assign state examiners the task of reviewing third-party testers, thus promoting
   consistency in testing.




Exhibit C. CDL Fraud Controls
                                                                                  16

•	 Use pass/fail statistics on examiners to focus the reviews of third-party testers
   or state examiners who show unusually high pass rates.
•	 Perform checks of all score sheets completed by examiners and plot the scores
   on sampled tests to identify suspicious scoring patterns. Take action if review
   shows that the applicant was not properly passed.
•	 Establish up-to-date oversight files on all third-party examiners. For example,
   ensure all files contain the same items (that is, initial application; background
   checks; medical, criminal, and training records; information on pass/fail rates;
   and copies of recent audits).
Control Area #10—General Oversight: Controls established to generally ensure
that the CDL Program is working as intended.

•	 Perform statewide audits related to the CDL program. For example, check
   third-party testers with state employment records to ensure that third-party
   testers properly record their employer.
•	 Conduct audits to include tracing a sample of CDLs issued according to the
   computer system to score sheets and written tests.
•	 Remove from the program third parties that do not take or successfully
   complete the required training.
•	 Maintain an up-to-date database of third-party testers, along with date of most
   recent audit, and training.
•	 Review statistics AAMVA prepares on licenses issued and exchange of records
   across states to ensure consistency with state-generated data.
•	 Ensure that score sheets used for driving tests record length of time for the
   examination and the signature of the applicant and the tester.
•	 Program computer systems so that examiner identification numbers associated
   with tests can be retrieved and so that the licensing clerk involved with specific
   transactions can be identified.
•	 Require third-party testers to be bonded.
Revoke testing privileges from third-party testers who do not administer a certain
minimum of driving tests each year (in one state it was 24) to ensure the costs of
oversight do not exceed the benefits that accrue from having the third-party tester.




Exhibit C. CDL Fraud Controls
                                                                            17


  EXHIBIT D. DISPOSITION OF SUSPECT CDL HOLDERS




                      1,147          278                      2,891




5,314
                                                                           3,334

                                            2,068




Drivers retested or provided adequate evidence to keep their CDL

Drivers had their CDL cancelled, disqualified, revoked, suspended or failed retesting

Drivers had their CDL downgraded or they voluntary surrendered their CDL

Drivers CDL reported as suspect but final disposition was unknown

Drivers had transferred their state of residence

Drivers had not been retested or were unsolved for other reasons




  Exhibit D. Disposition of Suspect CDL Holders
                                                            18


EXHIBIT E. MAJOR CONTRIBUTORS TO THIS REPORT
THE FOLLOWING INDIVIDUALS CONTRIBUTED TO THIS REPORT.


  Name                                  Title

  Joe Comé                              Program Director

  Gerard Sheeran                        Project Manager

  Maurice Toval                         Senior Auditor

  Carl Hamilton                         Auditor

  Harriet E. Lambert                    Writer-Editor

  Thomas Lehrich                        Chief Counsel

  Katherine Ovalle                      Associate Counsel




Exhibit E. Major Contributors to this Report
                             19


APPENDIX. FMCSA COMMENTS 





Appendix. FMCSA Comments
                           20




Appendix. FMCSA Comments
                           21




Appendix. FMCSA Comments
                           22




Appendix. FMCSA Comments
                           23




Appendix. FMCSA Comments
                           24




Appendix. FMCSA Comments
                           25




Appendix. FMCSA Comments
